      FISCAL YEAR 2006

 MILITARY RETIREMENT FUND

AUDITED FINANCIAL STATEMENTS



                     November 1, 2006
______________________________________________________




                 DoD
      MILITARY RETIREMENT FUND
           FISCAL YEAR 2006
          AUDITED FINANCIAL
             STATEMENTS



                              Table of Contents


Management’s Discussion and Analysis ......................................... 1

Principal Statements ...................................................................... 17

Footnotes to the Principal Statements............................................ 25

Other Accompanying Information................................................. 43

Independent Auditors’ Reports...................................................... 47
            DoD
    MILITARY RETIREMENT
           FUND


MANAGEMENT’S DISCUSSION AND
        ANALYSIS
Management’s Discussion and Analysis ___________________________




                                  2
___________________________ Management’s Discussion and Analysis

               SUMMARY OF THE MILITARY RETIREMENT SYSTEM

                           For the Years Ended September 30, 2006 and 2005


Description of the Reporting Entity

The reporting entity is the Department of Defense (DoD) Military Retirement Fund (MRF). The military
retirement system provides benefits for retirement from active duty and from the reserves, disability
retirement benefits, and optional survivor coverage. The mission of the MRF is to accumulate funds in
order to finance on an actuarially sound basis the liabilities of the DoD under military retirement and
survivor benefit programs.

Within DoD, the Office of the Under Secretary of Defense for Personnel and Readiness, the Office of the
Under Secretary (Comptroller), and the Defense Finance and Accounting Service (DFAS) jointly oversee
the operations of the Military Retirement System. DFAS is responsible for the accounting, investing,
payment of benefits, and reporting of the Military Retirement Fund (the Fund). The DoD Office of the
Actuary within the Office of the Under Secretary of Defense for Personnel and Readiness (OUSD (P&R))
calculates the actuarial liability of the Fund. The Office of Military Personnel Policy within OUSD (P&R)
issues policy related to retirement benefits. The Office of the Under Secretary of Defense (Comptroller)
does the budgeting for the Fund, coordinates the financial statements, and is Chief Financial Officer of the
Fund.

The Fund was established by Public Law 98-94 (currently Chapter 74 of Title 10, U.S.C.). This law also
established an independent three-member DoD Retirement Board of Actuaries appointed by the President.
The Board is required to review valuations of the military retirement system; to determine the method of
amortizing unfunded liabilities; to report annually to the Secretary of Defense; and to report to the
President and the Congress on the status of the fund at least every four years. The DoD Office of the
Actuary provides all technical and administrative support to the Board.

In Fiscal Year (FY) 2006, the Fund paid out approximately $41 billion in benefits to military retirees and
survivors. In FY 2005, the Fund paid out approximately $39 billion in benefits to military retirees and
survivors. In addition to staff members of the reporting entity and the DoD Office of the Actuary, hundreds
of individuals at the DFAS Cleveland and Denver Pay Centers are involved in making the benefit
payments. However, the discrete administrative costs of supporting the Fund’s activities are not
determinable and are therefore not reflected in the Fund’s financial statements.

The Fund receives income from three sources: monthly normal cost payments from the Services to pay for
the current year’s service cost; annual payments from Treasury to amortize the unfunded liability and pay
for the increase in the normal cost attributable to Concurrent Receipt per the National Defense
Authorization Act (NDAA) of 2004; and investment income. During FY 2006, the Fund received
approximately $14 billion in normal cost payments, a $26 billion Treasury payment, and approximately
$12 billion in investment income, net of premium/discount amortization and accrued inflation
compensation. During FY 2005, the Fund received approximately $15 billion in normal cost payments, a
$23 billion Treasury payment, and approximately $11 billion in investment income, net of
premium/discount amortization and accrued inflation compensation.




                                                     3
Management’s Discussion and Analysis ___________________________

Summary

The military retirement system applies to members of the Army, Navy, Marine Corps, and Air Force.
However, most of the provisions also apply to retirement systems for members of the Coast Guard
(administered by the Department of Homeland Security), officers of the Public Health Service
(administered by the Department of Health and Human Services), and officers of the National Oceanic and
Atmospheric Administration (administered by the Department of Commerce). Only those members in
plans administered by the Department of Defense (DoD) are included in this report.

The system is a funded, noncontributory defined benefit plan that includes nondisability retired pay,
disability retired pay, retired pay for reserve service, survivor annuity programs, and special compensation
programs for certain disabled retirees. The Service Secretaries may approve immediate nondisability
retired pay at any age with credit of at least 20 years of active duty service. Reserve retirees must be at
least 60 years old and have at least 20 qualified years of service before retired pay commences. There is no
vesting before retirement.


Non Disability Retirement From Active Service

There are three distinct nondisability benefit formulas related to three populations within the military
retirement system. Final pay: Military personnel who first became members of a uniformed service before
September 8, 1980, have retired pay equal to final basic pay times a multiplier. The multiplier is equal to
2.5 percent times years of service and is limited to 75 percent. High-3: If the retiree first became a member
of a uniformed service on or after September 8, 1980, the average of the highest 36 months of basic pay is
used instead of final basic pay. Redux: Members who first became a member of a uniformed service on or
after August 1, 1986 and who elect to receive the Career Status Bonus outlined below are subject to a
multiplier penalty if they retire with less than 30 years of service; however, at age 62, their retired pay is
recomputed without the penalty. They also have retired pay computed on a base of the average of their
highest 36 months of basic pay. The FY 2000 Defense Authorization Act provided that Redux members
have a choice of (a) receiving High-3 benefits or (b) staying under the Redux formula and receiving a
lump-sum $30,000 payment, called a Career Status Bonus. Members make their election during the
fifteenth year of service. Those who choose the lump-sum payment must remain continuously on active
duty until they complete 20 years of active duty service or forfeit a portion of the $30,000.

Retired pay and survivor annuity benefits are automatically adjusted annually to protect the purchasing
power of initial retired pay. The benefits associated with members first entering a uniformed service before
August 1, 1986, or those entering on or after that date who do not take the bonus, have their benefits
adjusted annually by the percentage increase in the average Consumer Price Index (CPI). This is
commonly referred to as full CPI protection. Benefits associated with members entering on or after August
1, 1986, who elect the $30,000 bonus payment are annually increased by the percentage change in the CPI
minus 1 percent, but at the military member’s age 62, or when the member would have been age 62 for a
survivor annuity, the benefits are restored to the amount that would have been payable had full CPI
protection been in effect. This restoral is in combination with that described in the previous paragraph.
However, after this restoral, partial indexing (CPI minus 1 percent) continues for future retired pay and
survivor annuity payments.

As of September 30, 2006, there were approximately 1.45 million nondisability retirees from active duty
receiving retired pay. In FY 2006, nondisability retirees were paid approximately $33.88 billion. As of
September 30, 2005, there were approximately 1.44 million nondisability retirees from active duty
receiving retired pay. In FY 2005, nondisability retirees were paid approximately $32.40 billion.



                                                      4
___________________________ Management’s Discussion and Analysis

Disability Retirement

A disabled military member is entitled to disability retired pay if the member has at least 20 years of
service or the disability is at least 30 percent (under a standard schedule of rating disabilities by the
Veterans Administration) and either (1) the member has at least eight years of service; (2) the disability
results from active duty; or (3) the disability occurred in the line of duty during a time of war or national
emergency or certain other time periods.

In disability retirement, the member receives retired pay equal to the larger of (1) the accrued nondisability
retirement benefit regardless of eligibility to retire or (2) base pay multiplied by the rated percent of
disability. The benefit cannot be more than 75 percent of base pay. Only the excess of (1) over (2) is
subject to federal income taxes if the member had service on or before September 24, 1975. If not a
member of a uniformed service on September 24, 1975, disability retired pay is tax-exempt only for those
disabilities that are combat or hazardous duty related. Base pay is equal to final basic pay if the retiree first
became a member of a uniformed service before September 8, 1980; otherwise, base pay is equal to the
average of the highest 36 months of basic pay.

Members whose disabilities may not be permanent are placed on a temporary-disability retired list and
receive disability retirement pay just as if they were permanently disabled. However, they must be
physically examined every 18 months for any change in disability. A final determination must be made
within five years. The temporary disability pay is calculated like the permanent disability retired pay,
except that it can be no less than 50 percent of base pay.

As of September 30, 2006, there were approximately 87,000 disability retirees receiving retired pay. In FY
2006, disability retirees were paid approximately $1.29 billion. As of September 30, 2005, there were
approximately 89,000 disability retirees receiving retired pay. In FY 2005, disability retirees were paid
approximately $1.25 billion.


Reserve Retirement

Members of the reserves may retire after 20 qualifying years of creditable service, the last six of which
must be in a reserve component. However, reserve retired pay is not payable until age 60. Retired pay is
computed as base pay times 2.5 percent times years of service. If the reservist was first a member of a
uniformed service before September 8, 1980, base pay is defined as the active duty basic pay in effect for
the retiree’s grade and years of service at the time that retired pay begins. If the reservist first became a
member of a uniformed service on or after September 8, 1980, base pay is the average basic pay for the
member’s grade in the highest 36 months computed as if he/she was on active duty for the 36 months
immediately preceding age 60. The years of service are determined by using a point system, where 360
points convert to a year of service. Typically, a point is awarded for a day of service or drill attendance,
with 15 points being awarded for a year’s membership in a reserve component. A creditable year of service
is one in which the member earned at least 50 points. A member cannot retire with less than 20 creditable
years, although points earned in non-creditable years are used in the retirement calculation. Non-active
duty points are limited in any year to no more than 90. Lesser limitations have applied in the past.

As of September 30, 2006, there were approximately 292,000 reserve retirees receiving retired pay. In FY
2006, reserve retirees were paid approximately $3.49 billion. As of September 30, 2005, there were
approximately 280,000 reserve retirees receiving retired pay. In FY 2005, reserve retirees were paid
approximately $3.31 billion.




                                                        5
Management’s Discussion and Analysis ___________________________

Survivor Benefits

Legislation originating in 1953 provided optional survivor benefits. It was later referred to as the Retired
Servicemen’s Family Protection Plan (RSFPP). The plan proved to be expensive and inadequate since the
survivor annuities were never adjusted for inflation and could not be more than 50 percent of retired pay.
RSFPP was designed to be self-supporting in the sense that the present value of the reductions to retired
pay equaled the present value of the survivor annuities.

On September 21, 1972, RSFPP was replaced by the Survivor Benefit Plan (SBP) for new retirees. RSFPP
still covers those servicemen retired before 1972 who did not convert to the new plan or who retained
RSFPP in conjunction with SBP. RSFPP continues to pay survivor annuities.

Retired pay is reduced, before taxes, for the member’s cost of SBP. Total SBP costs are shared by the
Government and the retiree, so the reductions in retired pay are only a portion of the total cost of the SBP
program.

The SBP survivor annuity is initially 55 percent of the member’s base amount. The base amount is elected
by the member, but cannot be less than $300 or more than the member’s full retired pay. If the member
elects the Career Status Bonus with REDUX and is subject to a penalty for service under 30 years in the
calculation of retired pay, the maximum base amount is equal to the full retired pay without the penalty.

When the plan started in 1972, survivor benefits for those annuitants 62 and over were reduced to reflect
the availability of Social Security. In 1985, that reduction formula was changed so all annuitants 62 and
over received 35% of the member’s base. Those whose annuities were reduced by a Social Security offset
were grandfathered to get the better of the two formulas. The National Defense Authorization Act for FY
2005 (P.L.108-375) phased out the reduction in the survivor benefit that occurs at age 62 by April 1, 2008
for all current and future survivors.

During FY 1987, the SBP program’s treatment of survivor remarriages changed. Prior to the change, a
surviving spouse remarrying before age 60 had the survivor annuity suspended. The change lowered the
age to 55. If the remarriage ends in divorce or death, the annuity is reinstated.

Members who die on active duty are assumed to have retired with full disability on the day they died and to
have elected full SBP coverage for spouses, former spouses, and/or children. Insurable interest elections
may be applicable in some cases. These benefits have been improved and expanded over the history of the
program. The 2006 National Defense Authorization Act (Public Law 109-163) allowed surviving spouses
to transfer the SBP benefit to an eligible child without being subject to a Dependency and Indemnity
Compensation (DIC) offset.

SBP annuities are reduced by any Veterans Administration (VA) survivor benefits (DIC) and all premiums
relating to the reductions are returned to the survivor. Additionally, SBP annuities and premiums are
annually increased with cost-of-living adjustments (COLAs). These COLAs are either full or partial CPI
increases, depending on the benefit formula covering the member. If a member who elected the Career
Status Bonus dies before age 62, the survivor is subject to partial COLAs and his/her annuity is increased
on what would have been the member’s 62nd birthday to the amount that would have been payable had full
COLAs been in effect. Partial COLAs continue annually thereafter.

For reserve retirees, the same set of retired pay reductions applies for survivor coverage after a reservist
turns 60 and begins to receive retired pay. A second set of optional reductions, under the Reserve
Component Survivor Benefit Plan (RCSBP), provides annuities to survivors of reservists who die before
age 60, but after attaining 20 years of qualified service. The added cost of this coverage is borne


                                                       6
___________________________ Management’s Discussion and Analysis

completely by reservists through deductions from retired pay and survivor annuities.

A paid-up provision eliminating the reduction in retired pay for premiums for SBP and RSFPP coverage
will be effective October 1, 2008, for participants age 70 or older whose retired pay has been reduced for
30 years or more. In addition, the 2005 National Defense Authorization Act included a one-year Open
Season from October 1, 2005, to September 30, 2006, during which retirees who had previously declined
SBP coverage could enroll, or those already enrolled could increase their coverage.

As of September 30, 2006, there were approximately 285,000 survivors of military members receiving
annuity payments. In FY 2006, survivors were paid approximately $2.65 billion. As of September 30,
2005, there were approximately 279,000 survivors of military members receiving annuity payments. In FY
2005, survivors were paid approximately $2.25 billion.


Temporary Early Retirement Authority (TERA)

The National Defense Authorization Act for FY 1993 (P.L. 102-484) granted temporary authority for the
military services to offer early retirements to members with more than 15 but less than 20 years of service.
The retired pay was calculated in the usual way except that there was a reduction of 1 percent for every
year below 20 years of service. Part or all of this reduction can be restored at age 62 if the retired member
works in a qualified public service job during the period from the date of retirement to the date on which
the retiree would have completed 20 years of service. Unlike members who leave military service before
20 years with voluntary separation incentives or special separation benefits, these early retirees are
generally treated like regular military retirees for the purposes of other retirement benefits. This authority
expired on September 1, 2002.

As of September 30, 2006, there were approximately 58,000 TERA retirees receiving retired pay. In FY
2006, TERA retirees were paid approximately $769 million. As of September 30, 2005, there were
approximately 58,000 TERA retirees receiving retired pay. In FY 2005, TERA retirees were paid
approximately $769 million.


Cost-of-Living Increase

All nondisability retirement, disability retirement, and most survivor annuities are adjusted annually for
inflation. Cost-of-living adjustments (COLAs) are automatically scheduled to occur every 12 months, on
December 1st, to be reflected in checks issued at the beginning of January.

The “full” COLA effective December 1 is computed by calculating the percentage increase in the average
CPI from the third quarter of the prior calendar year to the third quarter of the current calendar year. The
increase is based on the Urban Wage Earner and Clerical Worker Consumer Price Index (CPI-W) and is
rounded to the nearest tenth of one percent.

The benefits of retirees (and their survivors) are increased annually with the full COLA, except for those
first entering a uniformed service on or after August 1, 1986, who elect the $30,000 Career Status Bonus.
Their benefits are increased annually with a partial COLA equal to the full COLA minus 1 percent. A one-
time restoral is given to a partial COLA recipient on the first day of the month after the retiree’s 62nd
birthday. At this time, retired pay (or the survivor benefit if the retiree is deceased) is increased to the
amount that would have been payable had full COLAs been in effect. Annual partial COLAs continue after
this restoral.



                                                       7
Management’s Discussion and Analysis ___________________________

Relationship with Department of Veterans Affairs (VA) Benefits

The Department of Veterans Affairs (VA) provides compensation for Service-connected and certain non-
Service-connected disabilities. These VA benefits can be in place of or in combination with DoD retired
pay, but through December 31, 2003 were not fully additive. Since VA benefits are exempt from federal
income taxes, it is often to the advantage of a member to elect them. Through 2003, retired pay earned from
DoD for military service was offset by any payment received from Veterans Affairs for a VA-rated
disability. The National Defense Authorization Act of 2004 (P.L. 108-136) provided a phase-out of the
offset to military retired pay due to receipt of VA disability compensation for members whose combined
disability rating is 50% or greater. Members retired under disability provisions must have at least 20 years
of service. P.L. 108-136 also expands eligibility under the Combat Related Special Compensation program
to include qualified retirees at any combined percentage rating for certain combat-related disabilities
compensated by the VA. Certain retirees who meet the 50% criteria specified by the statute will have their
offset phased out over a ten-year period beginning in 2004 and ending in 2013. Some retirees who receive
other special payments, such as Combat Related Special Compensation, may not be subject to the ten-year
offset phase-out. The National Defense Authorization Act of 2005 (P.L. 108-375) eliminated the phase-out
of the offset to military retired pay for 20-year retirees with a 100% VA disability rating. The National
Defense Authorization Act of 2006 (P.L. 109-163) accelerated the phase-in schedule for those deemed
“unemployable” so their retired pay is fully phased in by 2010.

Veterans Administration benefits also overlap survivor benefits through the Dependency and Indemnity
Compensation (DIC) program. DIC is payable to survivors of veterans who die from Service-connected
causes. Although an SBP annuity must be reduced by the amount of any DIC benefit, all SBP premiums
relating to the reduction in benefit are returned to the survivor.


Interrelationship with Other Federal Service

For retirement purposes, no credit is given for other federal service, except where cross-service
transferability is allowed. Military service is generally creditable toward the federal civilian retirement
systems if military retired pay is waived.


Relationship of Retired Pay to Military Compensation

Basic pay is the only element of military compensation upon which retired pay is based and entitlement is
determined. Basic pay is the principal element of military compensation that all members receive, but it is
not representative, for comparative purposes, of salary levels in the public and private sectors. Reasonable
comparisons can be made to regular military compensation (RMC). RMC is the sum of (1) basic pay, (2)
the housing allowance, which varies by grade, location, and dependency status, and a subsistence
allowance and (3) the tax advantages accruing to allowances because they are not subject to federal income
tax. Basic pay represents approximately 70 percent of RMC for all retirement eligibles. For the 20-year
retiree, basic pay is approximately 67 percent of RMC. Consequently, a 20-year retiree may be entitled to
50 percent of basic pay, but only 34 percent of RMC. For a 30-year retiree, the corresponding entitlements
are 75 percent of basic pay, but only 54 percent of RMC. These relationships should be considered when
military retired pay is compared to compensation under other retirement systems.




                                                       8
___________________________ Management’s Discussion and Analysis


Social Security Benefits

Many military members and their families receive monthly benefits indexed to the CPI from Social
Security. As full participants in the Social Security system, military personnel are in general entitled to the
same benefits and are subject to the same eligibility criteria and rules as other employees. Details
concerning the benefits are covered in other publications.

Beginning in 1946, Congress enacted a series of amendments to the Social Security Act that extended some
benefits to military personnel and their survivors. These “gratuitous” benefits were reimbursed out of the
general fund of the U.S. Treasury. The Servicemen’s and Veterans’ Survivor Benefits Act brought
members of the military into the contributory Social Security system effective January 1, 1957.

For the Old Age, Survivors, and Disability Insurance (OASDI) program, military members must contribute
the employee portion of the OASDI payroll tax, with the federal government contributing the matching
employer contribution. Only the basic pay of a military member constitutes wages for social security
purposes. One feature of OASDI unique to military personnel grants a noncontributory wage credit of (i)
$300 for each quarter between 1956 and 1978 in which such personnel received military wages and (ii) up
to $1,200 per year after 1977 ($100 of credit for each $300 of wages up to a maximum credit of $1,200).
The purpose of this credit is to take into account elements of compensation such as quarters and subsistence
not included in wages for Social Security benefit calculation purposes.

Members of the military are also required to pay the Hospital Insurance (HI) payroll tax, with the federal
government contributing the matching employer contribution. Medicare eligibility occurs at age 65, or
earlier if the employee is disabled.


Significant Changes During FY 2006

Significant changes during FY 2006 included the following assumption changes: (1) implementation of the
new long-term interest assumption, (2) computed new Take-Rate for those service personnel who elect the
Career Status Bonus (CSB), (3) updated Temporary Disability rates, (4) updated factors used to project
Survivor Annuities, (5) a one-year open season for SBP, and (6) refinements to the methodologies used to
calculate the Concurrent Receipt Phase-in amounts.

The most significant change was the new long-term interest assumption. At the DoD Retirement Board of
Actuaries August 2006 meeting, the Board lowered the long-term interest assumption from 6.25% to
6.00%.

Changes during FY 2005 included updating of retiree divorce rates, and enhancing the part-time valuation
to better reflect the accumulation of years of active service over a reservist’s career.


Changes for FY 2007

The possible foreseen benefit changes with respect to the Military Retirement Fund for FY 2007 include:
(1) targeted pay increases for particular pay grades and (2) elimination of the 75 percent retired pay
multiplier cap for retirements exceeding 30 years of service.




                                                       9
Management’s Discussion and Analysis ___________________________

Performance Measures

During FY 2006 and 2005, the Fund made monthly disbursements to approximately 2.1 million retirees and
annuitants.

While there are many ways to measure the funding progress of a pension plan, the ratio of assets in the fund
to the present value of future benefits for annuitants on the roll is commonly used. Here is what this ratio
has been for the last ten years:

                                a.   September 30, 2006 = .346
                                b.   September 30, 2005 = .334
                                c.   September 30, 2004 = .338
                                d.   September 30, 2003 = .351
                                e.   September 30, 2002 = .378
                                f.   September 30, 2001 = .347
                                g    September 30, 2000 = .354
                                h.   September 30, 1999 = .352
                                i.   September 30, 1998 = .331
                                j.   September 30, 1997 = .322

The effective yield of the Fund during FY 2006 was approximately 5.47%.


Projected Long-Term Health of the Fund

The projected long-term health of the fund is good due to the fact that it has three different sources of
funding. The first two are appropriated funds—one is annual payments from Treasury to amortize the
unfunded liability and pay the normal cost of the concurrent receipt benefits, and one is monthly normal
cost payments from the Services to pay for the current year’s service cost. Both of these can be considered
secure sources of funding backed by the “full faith and credit” of the U.S. Government. The investment
portion will most likely be an increasing contribution to the Fund as the return on investments increases due
to an increasing Fund balance.

Basic pay for FY 2006 was projected to be $51.6 billion. Normal cost payments were projected to be $15.5
billion. The unfunded liability amortization payment was projected to be $23.2 billion. Investment income
was projected to be $13.1 billion. Fund disbursements for FY 2006 were projected to be $41.3 billion.
Actual amounts for FY 2006 were $41.2. The table below presents a projection of contributions to and
disbursements from the Fund. It includes the dollar amounts as a percent of payroll. The Fund is projected
to remain solvent over the 20-year projection period.




                                                     10
___________________________ Management’s Discussion and Analysis

                                             MILITARY RETIREMENT SYSTEM
                                          PROJECTED FLOW OF PLAN ASSETS
                                   (In Billions of Dollars and as a Proportion of Payroll)

 Fiscal      Basic       Normal Cost         Amortization of        Investment               Fund          Fund Balance
                                               Unfunded
 Year       Payroll        Payments             Liability             Income           Disbursements        End of Year

 2007        $51.6       $15.6   (0.301)     $26.0    (0.505)      $13.8   (0.268)     $43.5   (0.843)     $220.3   (4.268)
 2008        $51.7       $15.6   (0.301)     $27.0    (0.523)      $14.6   (0.282)     $45.5   (0.880)     $232.0   (4.488)
 2009        $52.1       $15.7   (0.301)     $28.0    (0.538)      $15.3   (0.294)     $47.3   (0.909)     $243.7   (4.679)
 2010        $52.6       $15.8   (0.300)     $29.1    (0.553)      $16.1   (0.306)     $48.8   (0.928)     $255.8   (4.860)
 2011        $53.4       $16.0   (0.300)     $30.2    (0.565)      $16.9   (0.316)     $50.2   (0.940)     $268.7   (5.030)

 2012        $54.3       $16.3   (0.300)     $31.3    (0.577)      $17.7   (0.326)     $51.5   (0.949)     $282.5   (5.203)
 2013        $55.3       $16.6   (0.300)     $32.5    (0.588)      $18.6   (0.337)     $52.8   (0.955)     $297.4   (5.380)
 2014        $56.3       $16.9   (0.299)     $33.7    (0.598)      $19.6   (0.348)     $54.1   (0.960)     $313.6   (5.566)
 2015        $57.5       $17.2   (0.299)     $35.0    (0.609)      $20.7   (0.360)     $55.5   (0.966)     $330.9   (5.759)
 2016        $59.3       $17.8   (0.299)     $36.3    (0.611)      $21.8   (0.367)     $57.0   (0.960)     $349.8   (5.894)

 2017        $61.3       $18.3   (0.299)     $37.6    (0.614)      $23.0   (0.376)     $58.5   (0.956)     $370.2   (6.043)
 2018        $63.2       $18.9   (0.299)     $39.1    (0.618)      $24.4   (0.386)     $60.2   (0.951)     $392.4   (6.207)
 2019        $65.2       $19.5   (0.299)     $40.5    (0.621)      $25.8   (0.396)     $61.8   (0.948)     $416.5   (6.384)
 2020        $67.3       $20.1   (0.299)     $42.0    (0.625)      $27.4   (0.407)     $63.5   (0.944)     $442.5   (6.575)
 2021        $69.4       $20.8   (0.299)     $43.6    (0.628)      $29.1   (0.419)     $65.3   (0.940)     $470.7   (6.779)

 2022        $71.6       $21.4   (0.299)      $45.2   (0.632)      $30.9   (0.432)     $67.1   (0.937)     $501.2   (6.998)
 2023        $73.9       $22.1   (0.299)      $46.9   (0.635)      $32.9   (0.445)     $68.9   (0.933)     $534.1   (7.229)
 2024        $76.3       $22.8   (0.299)      $60.0   (0.786)      $35.7   (0.468)     $70.8   (0.927)     $581.9   (7.626)
 2025        $78.9       $23.6   (0.299)     $110.1   (1.396)      $41.8   (0.530)     $72.6   (0.920)     $684.8   (8.682)
 2026        $81.6       $24.4   (0.299)     $114.2   (1.400)      $48.5   (0.594)     $74.4   (0.912)     $797.5   (9.772)




Expected Problems

There are no foreseen major problems with respect to the Military Retirement Fund that would require
disclosure in the Management’s Discussion and Analysis.


Type of Investments

The Fund receives income from three sources: monthly normal cost payments from the Services to pay for
the current year’s service cost; annual payments from Treasury to amortize the unfunded liability and pay
for the increase in the normal cost attributable to Concurrent Receipt; and investment income.

The Fund receives investment income from a variety of Treasury-based instruments such as bills, notes,
bonds and overnight investment certificates. Treasury bills are short-term securities with maturities of less
than one year issued at a discount. Treasury notes are intermediate securities with maturities of one to ten
years. Treasury bonds are long-term debt instruments with maturities of greater than ten years. Overnight
certificates are interest-based market securities purchased from the Treasury that mature the next business


                                                      11
Management’s Discussion and Analysis ___________________________

day and accrue interest based on the Federal Reserve Bank of New York survey of Reserve repurchase
agreement rates.

The Fund also invests in Treasury Inflation-Protected Securities (TIPS), which are indexed for inflation.
TIPS are fixed-rate instruments designed to protect against inflation and the principal amount is indexed to
the consumer price index (CPI) by adjusting the CPI at issuance to the current CPI; as inflation increases,
so does the principal amount and the coupon.

All of these instruments are debt obligations of the U.S Government and are backed by the “full faith and
credit” of the government. Debt obligations of the U.S. Government have virtually no risk of nonpayment
of principal and interest at the specified due date.

The Fund receives management oversight from the Department of Defense Investment Board established in
September 2003. The members of the Investment Board are the Director, Defense Finance and Accounting
Service, the Deputy Chief Financial Officer, Office of the Under Secretary of Defense (Comptroller) and a
senior military member, currently the Vice Chief of Naval Operations. The Investment Board met in FY
2005 and considered investment objectives, policies, performance and strategies with the goal of
maximizing the Fund's investment income. The Board reviews the Fund's Law and Department of
Treasury guidelines to ensure that the Fund complies with broad policy guidance and public law. The
Investment Board approved a revised Investment Strategy that seeks to match the duration of the assets
with the duration of the liability while ensuring the cash disbursement needs of the fund are met.


Expected Changes Between the Expected and Actual Investment Rate of Return

Due to the currently increasing trend in interest rates, the increasing deficit, the volatility in the markets
with regard to energy prices, and the current state of international conflict one might expect the U.S. budget
deficit to increase. This will necessitate increased borrowing by the U.S. Government for the foreseeable
future and therefore there may be a greater opportunity to purchase treasury market securities at higher
rates of interest. An investment strategy has been developed to shift towards Treasury Inflation Protected
Securities to hedge against any future inflation to increase the profitability of the Fund over time.




                                                     12
___________________________ Management’s Discussion and Analysis

Financial Data

The table below presents comparative financial statement information for the MRF.

                                        Military Retirement Fund
                                     Analysis of Financial Statements
                                          for the years ended September 30, 2006 and 2005
                                                           ($ in Thousands)

                                                                                                                  Difference
                     Statements of Net Assets                                  2006              2005          (Increase/Decre
                                                                                                                     ase)
Fund Balance with Treasury
   - Ensured sufficient funds were available to                                  $ 30,735          $ 22,896            $ 7,839
     cover estimated disbursements                                                                                        34%
Investments
  - Revenue from Treasury Payments
                                                                            $ 208,392,113    $ 197,807,057        $ 10,585,056
    Service Contribution, and Interest                                                                                     5%
Account Receivable
  - Continued emphasis placed on collecting                                      $ 23,259          $ 26,738           $ (3,479)
    these amounts                                                                                                          13%
Other Liabilities
  - Custodial Liability due to Treasury                                           $ 1,147           $ 1,058               $ 89
                                                                                                                           8%
Military Retirement Benefits and Other
  Employment Related Actuarial Liabilities                                  $ 963,696,277     $ 892,111,601       $ 71,584,676
  - Interest rate assumption change                                                                                        8%
Cumulative Results of Operations
  - Difference is the increase of the total liability over total assets,   $ (758,661,316)   $ (697,577,275)    $ (61,084,041)
     of which Actuarial Liability increased by $71.6 Billion and                                                           9%
     total assets increased by $10.6 Billion.
                       Statements of Net Costs
Gross Cost of Operations                                                    $ 112,821,696      $ 96,694,416       $ 16,127,280
  - Higher increase in Actuarial Liability in FY 06                                                                       17%
     due to assumption changes
                Statements of Budgetary Resources
Distributed Offsetting Receipts                                              $ 25,524,000      $ 22,897,000        $ 2,627,000
  - Unfunded liability amortization payment and concurrent                                                                11%
     receipt normal cost payment (FY 06 ) from Treasury
                       Statements of Financing
Net Cost of Operations                                                       $ 61,084,041      $ 47,882,214       $ 13,201,827
  - Increase in unfunded liability due to                                                                                 28%
     Change in long-term assumed interest rate




                                                              13
Management’s Discussion and Analysis ___________________________

Analysis of Entity’s Systems, Controls, & Legal Compliance

Agencies are required to provide certain assurances as to the status and effectiveness of the internal
controls and financial management systems that support the preparation of the financial statements. In the
context of this Fund, DoD and not MRF represents the legislative definition of an Agency. Beginning with
fiscal year 2006, as directed in OMB Circular A-123, Management’s Responsibility for Internal Control,
Appendix A, Internal Control over Financial Reporting, the 24 CFO Act agencies (including DoD), are
required to provide a separate assessment of the effectiveness of the internal controls over financial
reporting as a subset of the overall Federal Managers Financial Integrity Act assurance statement. OUSD
(C) issued guidelines to the Heads of DoD Components, including MRF, as to how to support this DoD
reporting requirement. The three offices that comprise the management of the MRF are in the process of
complying with the required guidelines for MRF. The MRF has been audited by DoDIG in conjunction
with a private audit firm and no material weaknesses were reported. MRF management provided an
assessment for MRF to OSD(C).


Improper Payments Information Act of 2002 (Public Law No. 107-300)

The Improper Payments Information Act of 2002, as implemented by the Office of Management and
Budget, requires federal agencies to review annually all programs and activities and identify those that may
be susceptible to significant erroneous payments. The DoD’s FY 2005 survey did not identify any
programs or activities where payments met the Office of Management and Budget’s criteria for
“significant” erroneous payments. The DoD reports to both the President and the Congress its progress in
reducing erroneous payments. The Department conducts various types of prepayment and postpayment
reviews for military retirement payments.

In FY 2004, the Fund Management began monthly random reviews of confirmed deceased retiree accounts,
in addition to monthly random reviews from the overall population of retired and annuity pay accounts.
Both of these sampling plans were designed to produce annual estimates of improper payments, with
probability of 95 percent and sample precisions of plus or minus 2.5 percent. DoD targeted the review of
confirmed deceased accounts as a subset of the population highly at risk for improper payments. A
monthly sample of accounts (approximately 138) is selected from the population of confirmed deceased
accounts. Each account is audited to determine if the member was overpaid after the member’s death was
reported to Military Retired and Annuitant Pay. Statistics collected from the review include the number of
accounts reviewed, number with overpayments, dollar amount of the overpayment, amount of correct pay
(what the payment should have been), and the dollar amount collected back from the member’s
account/estate within the first 60 days after notification. These sample statistics are projected to the
population of deceased retirees to then determine an improper payment rate population estimate for
deceased accounts. Population estimates from the deceased account reviews are then added to any
improper payments identified through other than retired pay random audits, to then determine an overall
improper payments population estimate for retired pay.

Military Retirement and Annuitant Pay places great emphasis on methods to reduce the dollar value of
improper payments to deceased retirees. It fully recognizes that a certain number of retirees will be paid
after death, simply by virtue of the inability to predict death and the fact that families have more pressing
issues to address immediately following death than to notify the Military Retired and Annuitant Pay
customer contact center. To minimize the impact of a delay in death notification, it has substantially
improved its internal processing methods as well as streamlining and automating listings and data mining
techniques with the Social Security Administration. This process allows DoD to receive death notice
information through an automated system match on military retirees. In many cases, this death notification
process will prevent the payment system from generating an improper payment. Preliminary assessment of


                                                     14
___________________________ Management’s Discussion and Analysis

the FY 2005 estimates suggests that these death match process improvement initiatives are contributing to a
reduction of improper payments to deceased personnel. FY 2004 improper payments to deceased retirees
were estimated at $51.8 million (the initial estimate of $26.2 million was incorrect and raised subsequently
to $51.8 million). FY 2005 improper payments to deceased retirees are estimated to be $46.5 million. The
Department expects to recover over 95 percent of this amount within 60 days of notification. For FY 2005,
the Department projected $49.3 million of improper payments for this program, with most of that ($46.7
million) going to deceased retirees. This represents an error rate of 0.1381 percent of the $35.7 billion in
military retirement payments. In addition, results from random review of the first 8 months of FY 2005
indicate that 95.81 percent of the overpaid dollars to deceased retirees is recovered within the first 60 days
after notification. As such, DoD can project that more than $47.2 million of the $49.3 million in
overpayments, nearly 96 percent, were recovered within 60 days of notification. Improper payments for
FY 2006 are projected to be $47.5 million. This represents .1331 percent of the estimated $35.7 billion in
outlays. Improper payments for FY 2007 are projected to be $45.8 million. This represents .1283 percent
of the estimated $35.7 billion in outlays. Improper payments for FY 2008 are projected to be $44.1 million.
This represents .1235 percent of the estimated $35.7 billion in outlays. These are all well below the 2
percent threshold.

At the current time, Military pay has the information and infrastructure needed to reduce improper
payments.

Two barriers impede the agency’s ability to take corrective actions in reducing improper payments, the
Federal Acquisition Regulation and the Retired and Annuitant Pay service contract. On January 28, 2002,
the servicing of Retired and Annuitant Pay came under the purview of a government contractor. Although
most functions remain unchanged from when the government performed these functions, there are now
contractual limits to the government’s involvement in the day-to-day operations of Retired and Annuitant
Pay. The Continuing Government Activities office was formed to oversee the Retired and Annuitant Pay
contract, to ensure the contractual requirements are followed; however, the government can no longer
direct how the work is accomplished. To bring about an operational change, both the government and the
contractor must agree on how to effect and fund a change. Any deviation from the current contract requires
a contract modification, which is detailed in the Federal Acquisition Regulation.


Limitations of the Financial Statements

These financial statements have been prepared to report the financial position and results of operations for
the Military Retirement Fund pursuant to the requirements of the Chief Financial Officers Act of 1990.
While the statements have been prepared from the books and records of the Military Retirement Fund in
accordance with the generally accepted accounting principles for Federal entities and formats prescribed by
the Office of Management and Budget, the statements are in addition to the financial statements used to
monitor and control budgetary resources that are prepared from the same books and records. These
statements should be read with the realization they are for a component of the U.S. Government, a
sovereign entity; unfunded liabilities reported in the financial statements can not be liquidated without the
enactment of an appropriation; and the payment of all liabilities other than for contracts can be abrogated
by DoD.




                                                     15
Management’s Discussion and Analysis ___________________________




                                  16
                 Principal Statements




         DoD
MILITARY RETIREMENT
       FUND


PRINCIPAL STATEMENTS




            17
Principal Statements




                       18
                                                                                                Principal Statements

                                                                      Department of Defense
                                                                 DoD Military Retirement Fund
                                                                       BALANCE SHEETS
                                                                For the Years Ended September 30
                                                                         (In Thousands)



                                                                                                     2006                     2005
ASSETS

    Intragovernmental:
        Fund Balances with Treasury (Note 3)                                                $                30,735       $           22,896
        Investments (Note 4)                                                                            208,392,113              197,807,057
    Total Intragovernmental Assets                                                          $           208,422,848       $      197,829,953

  Accounts Receivable (Note 5)                                                                                   23,259                   26,738
TOTAL ASSETS                                                                                $               208,446,107   $          197,856,691


LIABILITIES

    Intragovernmental:
        Other Liabilities (Note 6)                                                          $                     1,147   $                1,058
    Total Intragovernmental Liabilities                                                     $                     1,147   $                1,058

    Military Retirement Benefits and Other Employment-Related
       Actuarial Liabilities (Note 6 & 7)                                                                   963,696,277              892,111,601
    Benefits Due and Payable (Note 6)                                                                         3,409,999                3,321,307

TOTAL LIABILITIES                                                                           $               967,107,423   $          895,433,966

NET POSITION

  Cumulative Results of Operations                                                          $           (758,661,316) $          (697,577,275)
TOTAL NET POSITION                                                                          $           (758,661,316) $          (697,577,275)

TOTAL LIABILITIES AND NET POSITION                                                          $               208,446,107   $          197,856,691




The accompanying notes are an integral part of these statements.




                                                                                       19
Principal Statements

                                                                   Department of Defense
                                                              DoD Military Retirement Fund
                                                              STATEMENTS OF NET COST
                                                             For the Years Ended September 30
                                                                      (In Thousands)


                                                                                                2006                    2005

    PROGRAM COSTS
      Gross Costs (Note 9)                                                               $         112,821,696 $                96,694,416
      Less: Earned Revenue (Note 8)                                                                (51,737,655)                (48,812,202)

     Net Program Costs                                                                   $             61,084,041   $          47,882,214
NET COST OF OPERATIONS                                                                   $             61,084,041   $          47,882,214




The accompanying notes are an integral part of these statements.




                                                                                    20
                                                                                      Principal Statements

                                                                Department of Defense
                                                           DoD Military Retirement Fund
                                                     STATEMENTS OF CHANGES IN NET POSITION
                                                          For the Years Ended September 30
                                                                   (In Thousands)



                                                                                             2006                    2005

CUMULATIVE RESULTS OF OPERATIONS
  Beginning Balances                                                              $             (697,577,275) $         (649,695,061)

     Budgetary Financing Sources                                                  $                           0 $                     0
     Other Financing Sources                                                                                  0                       0
   Total Financing Sources                                                        $                           0 $                     0

   Net Cost of Operations (+/-)                                                   $                  61,084,041 $            47,882,214
   Net Change                                                                     $                 (61,084,041) $          (47,882,214)

   Cumulative Results of Operations                                               $             (758,661,316) $         (697,577,275)

   Unexpended Appropriations, Beginning Balance                                   $                           0 $                     0
     Budgetary Financing Sources                                                                              0                       0
   Total Unexpended Appropriations                                                $                           0 $                     0

    Net Position                                                                  $             (758,661,316) $         (697,577,275)




The accompanying notes are an integral part of these statements.




                                                                             21
Principal Statements

                                                                    Department of Defense
                                                                   DoD Military Retirement Fund
                                                         STATEMENTS OF BUDGETARY RESOURCES
                                                              For the Years Ended September 30
                                                                       (In Thousands)




                                                                                                  2006                   2005

BUDGETARY RESOURCES

     Unobligated balance, brought forward, October 1:                                 $                            0 $                    0
     Budget Authority:
          Appropriation                                                               $                   52,126,503 $           49,171,963
          Subtotal                                                                    $                   52,126,503 $           49,171,963
     Temporarily not available pursuant to Public Law                                                    (10,893,014)           (10,005,741)
Total Budgetary Resources                                                             $                   41,233,489 $           39,166,222


STATUS OF BUDGETARY RESOURCES

    Obligations incurred:
         Direct                                                                       $                  41,233,489 $           39,166,222
         Subtotal                                                                     $                  41,233,489 $           39,166,222

    Unobligated balance:
        Apportioned                                                                   $                            0 $                    0
        Exempt From Apportionment                                                                                  0                      0
        Subtotal                                                                      $                            0 $                    0

    Unobligated Balance Not Available                                                                             0                      0
Total Status of Budgetary Resources                                                   $                  41,233,489 $           39,166,222

CHANGE IN OBLIGATED BALANCE

    Obligated Balance, net
        Unpaid obligations, brought forward, October 1                                $                   3,321,072 $            3,120,239
        Total unpaid obligated balance, net                                           $                   3,321,072 $            3,120,239

    Obligations incurred net (+/-)                                                                        41,233,489             39,166,222
    Less: Gross Outlays                                                                                  (41,144,759)           (38,965,389)
    Obligated Balance, Net - end of period
        Unpaid Obligations                                                                                3,409,802              3,321,072
Total unpaid obligated balance, net, end of period                                    $                   3,409,802 $            3,321,072


NET OUTLAYS

    Net Outlays:
         Gross Outlays                                                                $                   41,144,759 $           38,965,389
         Less: Distributed Offsetting Receipts                                                           (25,524,000)           (22,897,000)
Total Net Outlays                                                                     $                   15,620,759 $           16,068,389

Additional information included in Note 10.

The accompanying notes are an integral part of these statements.




                                                                                 22
                                                                                                Principal Statements
                                                                 DoD Military Retirement Fund
                                                                STATEMENTS OF FINANCING
                                                                For the Years Ended September 30
                                                                         (In Thousands)


                                                                                                     2006                    2005

RESOURCES USED TO FINANCE ACTIVITIES
 Budgetary Resources Obligated
   Obligations incurred                                                                     $                41,233,489 $            39,166,222
   Less: Offsetting receipts                                                                                (25,524,000)            (22,897,000)
   Net Obligations                                                                          $                15,709,489 $            16,269,222

  Other Resources
    Transfers in/out without reimbursement                                                  $                        0 $                     0
    Net other resources used to finance activities                                          $                        0 $                     0
    Total resources used to finance activities                                              $               15,709,489 $            16,269,222

RESOURCES USED TO FINANCE ITEMS NOT PART OF
  THE NET COST OF OPERATIONS
  Change in budgetary resources obligated for good, services and benefits ordered
       but not yet provided:                                                                $                        0 $                     0
    Total resources used to finance items not part of the net cost of operations            $                        0 $                     0
Total resources used to finance the net cost of operations                                  $               15,709,489 $            16,269,222


COMPONENTS OF THE NET COST OF OPERATIONS THAT
  WILL NOT REQUIRE OR GENERATE RESOURCES IN THE
  CURRENT PERIOD
 Components Requiring or Generating Resources in Future Periods:
   Other                                                                                    $               71,584,638 $            57,529,523
   Total components of Net Cost of Operations that will require or generate
           resources in future periods                                                      $               71,584,638 $            57,529,523

  Components not Requiring or Generating Resources:
    Other (+/-)
           Trust Fund Exchange Revenue                                                      $               (26,213,655) $          (25,915,202)
           Other                                                                                                  3,569                  (1,329)
       Total components of net cost of operations that will not require
          or generate resources in the current period                                       $               45,374,552 $            31,612,992
Net Cost of Operations                                                                      $               61,084,041 $            47,882,214




The accompanying notes are an integral part of these statements.




                                                                                       23
Principal Statements




                       24
         Notes To The Principal Statements




        DoD
MILITARY RETIREMENT
       FUND



        NOTES
       TO THE
PRINCIPAL STATEMENTS




         25
Notes To The Principal Statements   d




                               26
                                                                   Notes To The Principal Statements

                                               DoD MILITARY RETIREMENT FUND
                                             NOTES TO THE PRINCIPAL STATEMENTS
                                        FOR THE YEARS ENDED SEPTEMBER 30, 2006 AND 2005

NOTE 1. SIGNIFICANT ACCOUNTING POLICIES

A. Basis of Presentation. The Department of Defense (DoD) Military Retirement Fund was authorized by Public Law (PL) 98-94 for
the accumulation of funds to finance the liabilities of the DoD under military retirement and survivor benefit programs.

These financial statements have been prepared to report the financial position and results of operations of the Military Retirement
Fund, as required by the Chief Financial Officers (CFO) Act of 1990, expanded by the Government Management Reform Act
(GMRA) of 1994, and other appropriate legislation. The financial statements have been prepared from the books and records of the
MRF maintained by the Trust Fund Accounting Division, Accounting Directorate, Defense Finance and Accounting Service, in
accordance with the requirements of the Office of Management and Budget (OMB) Circular A-136 “Financial Reporting
Requirements” and accounting principles generally accepted in the United States of America. The Military Retirement Fund financial
statements are prepared by the Military Retirement Fund in addition to the financial reports required pursuant to OMB directives that
are used to monitor and control the Military Retirement Fund’s use of budgetary resources. More detailed explanations of these
financial statement elements are discussed in applicable footnotes.

B. Mission of the Reporting Entity. The mission of the Department of Defense (DoD) MRF is to accumulate funds in order to
finance, on an actuarially sound basis, the liabilities of the DoD under military retirement and survivor benefit programs.

The asset accounts used to prepare the statements are categorized as either entity or non-entity assets, where applicable. Entity
accounts consist of resources that the agency has the authority to use or where management is legally obligated to use funds to meet
entity obligations. Non-entity accounts are assets that are held by an entity but are not available for use in the operations of the entity.

C. Appropriations and Funds. The MRF is a pension program established in fiscal year (FY) 1984 by PL 98-94, for the payment of
annuities and pensions to retired military personnel and their survivors. The DoD Retirement Board of Actuaries determines the
contributions made to the MRF. The DoD contribution is a percentage of basic pay. The Department of Treasury makes payments
from general revenues to amortize the unfunded liability, including any gains or losses that have arisen from assumption or benefit
changes, or from assumed experience differing from actual experience. The U.S. Department of Treasury’s total contribution includes
an additional amount to fund the normal cost for the Concurrent Receipt benefits. Excess funds from the contributions are invested
and accrued interest revenue is used to cover future liabilities of the Fund.

D. Basis of Accounting. Under the authority of the CFO Act of 1990, the Federal Accounting Standards Advisory Board (FASAB)
was established to recommend Federal Accounting Standards to the Secretary of the Treasury, the Director of the Office of
Management and Budget (OMB) and the Comptroller General. The Statements of Federal Financial Accounting Standards (SFFAS)
have been issued by the FASAB, following procedures adopted by the FASAB principles. Some SFFAS have deferred effective
dates.

In April 2000, the American Institute of Certified Public Accountants (AICPA) through Statements on Auditing Standards (SAS)
No. 69, “The Meaning of Present Fairly in Conformity with GAAP in the Auditor’s Report,” as amended by SAS No. 91, established
the following hierarchy of accounting principles for Federal government entities:

(A) Federal Accounting Standards Advisory Board (FASAB) Statements and Interpretations plus AICPA and Financial Accounting
Standards Board (FASB) pronouncements if made applicable to Federal governmental entities by a FASAB Statement or
Interpretation;

(B) FASAB Technical Bulletins and the following pronouncements if specifically made applicable to Federal governmental entities by
the AICPA and cleared by the FASAB: AICPA Industry Audit and Accounting Guides and AICPA Statement of Position;

(C) AICPA Accounting Standards Executive Committee Practice Bulletins if specifically made applicable to Federal governmental
entities and cleared by the FASAB and Technical Releases of the Accounting and Auditing Policy Committee of the FASAB; and

(D) Implementation guides published by the FASAB staff and practices that are widely recognized and prevalent in the Federal
government.
                                                                    27
         Notes To The Principal Statements                                                                                  d

In the absence of a pronouncement covered by Federal GAAP or another source of established accounting principles, the auditor of a
federal government entity may consider other accounting literature, depending on its relevance in the circumstances. When directed
by OMB, through OMB Circular A-136, generally accepted accounting principles in the United States of America serve as
authoritative guidance for Federal agencies in preparing reports that are addressed within this circular.

E. Revenues and Other Financing Source. Financing sources for the MRF are provided primarily through monthly Military Service
contributions as a percentage of base pay, a U.S. Department of Treasury payment to amortize the unfunded liability, including any
gains or losses that have arisen from assumption or benefit changes, or from assumed experience differing from actual experience, and
interest earned on investments.

F. Recognition of Expenses. For financial reporting purposes, DoD policy requires the recognition of operating expenses in the
period incurred.

G. Accounting for Intragovernmental Activities. The MRF purchases and redeems nonmarketable market-based securities issued by
the U.S. Department of Treasury, Bureau of the Public Debt. Nonmarketable market-based securities include U.S. Treasury bills,
notes, bonds, Treasury Inflation-Protected Securities (TIPS), and overnight certificates.

H. Funds with the U.S. Treasury. The Military Retirement Fund’s financial resources are maintained in U.S. Department of Treasury
Accounts. The Defense Finance and Accounting Service (DFAS) processes all fund receipts and adjustments and prepares monthly
reports that provide information to the U.S. Department of Treasury, by appropriation, on transfers, deposits and collections received.
The Department of the Treasury records this information to the applicable Fund Balance with Treasury (FBWT) account maintained in
the U.S. Department of Treasury system. Differences between the MRF’s recorded balance in the FBWT and U.S. Department of
Treasury’s FBWT accounts are reconciled.

I. Accounts Receivable. As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable
from other federal entities or from the public. Allowances for uncollectible accounts due from the public are based upon analysis of
collection experience by the Fund.

J. Investments in U.S. Government Securities. Intra-governmental securities represent non-marketable market based securities issued
by the U.S. Department of Treasury, Bureau of Public Debt. These securities are redeemable at market value exclusively through the
U.S. Department of Treasury, Bureau of Public Debt. These non-marketable market based Treasury securities are not traded on any
securities exchange, but mirror the prices of marketable securities with similar terms. Investments are recorded at amortized cost on
the Balance Sheets. Material disclosures are provided at Note 4.

K. Contingencies and Other Liabilities. Contingencies occur when DoD Military Retired Pay is offset by Department of Veterans
Affairs (DVA) payments. DoD entitlements are payable to the exact date of death and DVA entitlements end in the month preceding
death. The contingency becomes payable by DoD to cover retiree benefits not paid by DVA during the month of death.
L. Net Position. Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of authority that are unobligated and have not been rescinded or withdrawn.
Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not been incurred. The
MRF does not report unexpended appropriations because these amounts are not applicable.

Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses and
financing sources (including appropriations, revenue, and gains). Beginning with FY 1998, the cumulative results also include
donations and transfer in and out of assets without reimbursement.

M. Comparative Data. Certain FY 2005 amounts have been reclassified to conform to the FY 2006 presentation. Also, the
presentation of the FY 2005 data has been updated for the changes in presentation required in conjunction with the OMB Circular A-
136 “Financial Reporting Requirements,” updated and revised in July 2006.

N. Estimates. The preparation of financial statements in conformity with accounting principles generally accepted in the United States
of America requires management to make estimates and assumptions that affect the reported amounts of assets, liabilities and changes
therein, disclosure of contingent assets and liabilities, and the actuarial present value of accumulated plan benefits at the date of the
financial statements. Actual results could differ from those estimates.


                                                                  28
                                                                Notes To The Principal Statements

O. Actuarial Information. The DoD Military Retirement Fund financial statements present the unfunded actuarial liability determined
as of the end of the fiscal year based on population information as of the beginning of the year and updated using accepted actuarial
techniques. The “projected benefit obligation” method is used as required by SFFAS No. 5, “Accounting for Liabilities of the Federal
Government.”


        NOTE 2. NON-ENTITY ASSETS:

        ($ In Thousands)                                      FY 2006                    FY 2005
        Non-Entity Assets                             $              1,147     $                1,058
        Total Non-Entity Assets                       $              1,147     $                1,058

        Total Entity Assets                           $         208,444,960    $          197,855,633

        Total Assets                                  $         208,446,107    $          197,856,691


        Accounts Receivable of $1,147 and $1,058 for FYs 2006 and 2005, respectively, represents “Penalties, Fines, and
        Administration Fees Receivable," net of an allowance for loss which will be collected on behalf of U.S.
        Department of Treasury. This amount is also reflected in Note 6 as a custodial liability of $1,147 and $1,058 for
        FY 2006 and FY 2005, respectively.




                                                                 29
Notes To The Principal Statements                                                                                   d

NOTE 3. FUND BALANCE WITH TREASURY (FBWT):

($ In Thousands)                                               FY 2006           FY 2005

Fund Balance
        Trust Funds                                   $           30,735   $         22,896

Status of Fund Balance with Treasury:
         Unobligated Balance- Unavailable             $     202,031,879    $            0
         Obligated Balance not yet Disbursed                  3,409,801       194,459,938
         Non-FBWT Budgetary Accounts                       (205,410,946)     (194,437,042)
         Total                                        $          30,735    $       22,896

The FBWT is maintained to ensure that sufficient funds are available to cover disbursements for the last business
day of the fiscal year.

The Office of Management and Budget advised that certain U.S. Standard General Ledger accounts presented in
the quarterly FACTS II are inconsistent with the budget presentations submitted with the budget Schedule N
(Special and Trust Fund Receipts). Consequently, the unobligated fund balance brought forward in FY 2005 had to
be reclassified as receipts unavailable or precluded from obligation for the DoD Military Retirement Fund. As a
result, beginning with September 30, 2005, year-end reporting, the unobligated unavailable balance is no longer
visible on the Statement of Budgetary Resources.




                                                          30
                                                        Notes To The Principal Statements


NOTE 4. INVESTMENTS

($ In Thousands)                                                          FY 2006
                                                                            Amortized                                Market
                                                    Amortization                               Investments
                                       Cost                                (Premium)/                                 Value
                                                      Method                                       Net
                                                                             Discount                               Disclosure
Intragovernmental Securities
         Non Marketable,        $   213,248,633        Effective      $     (7,889,863)    $    205,358,770    $   202,876,743
         Marketable Based                               Interest
Subtotal                        $   213,248,633                       $     (7,889,863)    $    205,358,770    $   202,876,743

Accrued Interest                      3,033,344                                                   3,033,344          3,033,344
Total                           $   216,281,977                       $     (7,889,863)    $    208,392,113    $   205,910,087
Total Intragovernmental         $   216,281,977                       $     (7,889,863)    $    208,392,113    $   205,910,087


                                                                          FY 2005
                                                                            Amortized                                Market
                                                    Amortization                               Investments
                                       Cost                                (Premium)/                                 Value
                                                      Method                                       Net
                                                                             Discount                               Disclosure
Intragovernmental Securities
         Non Marketable,        $   208,140,459        Effective      $    (13,750,290)    $    194,390,169    $   197,354,456
         Marketable Based                               Interest
Subtotal                        $   208,140,459                       $    (13,750,290)    $    194,390,169    $   197,354,456

Accrued Interest                      3,416,888                                                   3,416,888          3,416,888
Total                           $   211,557,347                       $    (13,750,290)    $    197,807,057    $   200,771,344
Total Intragovernmental         $   211,557,347                       $    (13,750,290)    $    197,807,057    $   200,771,334


Intergovernmental securities represent non-marketable market-based securities issued by the U.S. Department of
Treasury, Bureau of Public Debt. Treasury bills are short-term securities with maturities of one year or less and are
purchased at a discount. Non-marketable market-based securities include Treasury bills, notes, bonds, Treasury
Inflation-Protected Securities (TIPS), and overnight certificates.

U.S. Treasury bills are short-term securities with maturities of one year or less and are purchased at a discount.
U.S. Treasury notes have maturities of at least one year, but not more than ten years, and are purchased at a
discount or premium. U.S. Treasury bonds are long-term securities with maturity terms of ten years or more and
are purchased at either a discount or premium. Treasury TIPS are securities with maturities of five to twenty years
and are purchased at a discount or premium. TIPS provide protection against inflation. The principal increases
with inflation and decreases with deflation, as measured by the Consumer Price Index. At maturity the recipient is
paid the adjusted principal or original principal, whichever is greater.

The Fund records investment at book value, representing amortized cost. The Fund recognizes the amortization of
discounts and premiums using the effective interest method. The Fund receives interest on the value of its
nonmarketable market-based securities from the U.S. Treasury on a semi-annual basis for U.S. Treasury bonds and
notes.




                                                         31
Notes To The Principal Statements                                                                                d

Investments increased from $194.4 billion in FY 2005 to $205.4 billion in FY 2006 because of a cumulative
positive cash flow. This positive cash flow occurred because there were a number of US Treasury Notes and Bills
to mature. This allowed the interest made to be invested in overnight US Treasury Securities, which yield a higher
interest. The investments listed above are also presented at Market Value as of September 30, 2006, and 2005.
The following tables display the Par Value of the U.S. Treasury Securities referenced above.



($ In Thousands)
                                              FY 2006                               FY 2005
                                            PAR VALUE                             PAR VALUE

Bonds                               $             34,704,232               $            53,999,882
Notes                                             49,437,658                            49,437,658
TIPS                                              94,730,199                            55,041,460
Overnights                                         2,937,882                            18,802,622
Total Par Value                     $            181,809,971               $           177,281,622




                                                        32
                                                      Notes To The Principal Statements

NOTE 5. ACCOUNTS RECEIVABLE:

($ In Thousands)                                     FY 2006
                                          Gross            Allowance for
                                                                                   Net Amount
                                         Amount              Estimated
                                                                                       Due
                                          Due              Uncollectible
Entity Receivables:
   Nonfederal Receivables
    (With the Public)              $        28,894    $        (5,635)        $           23,259

                                                     FY 2005
                                         Gross             Allowance for
                                                                                   Net Amount
                                        Amount               Estimated
                                                                                       Due
                                         Due               Uncollectible
Entity Receivables
   Nonfederal Receivables
    (With the Public)              $        32,665    $        (5,927)        $           26,738

Nonfederal Receivables (From the Public) represent penalties, fines, and administrative fees receivable. The MRF
uses the General Reserve Method to calculate a percentage for an allowance for estimated uncollectibles. This
method, which is described in Volume 4, Chapter 3, Annex 1, paragraph A.1.a.(3) of the DoD Financial
Management Regulation, establishes a reserve based on age of the debts and bad debt experience. Accounts
receivable includes amounts, claims, and refunds receivable from Retirees and Annuitants.




                                                          33
Notes To The Principal Statements                                                                                    d

NOTE 6. LIABILITIES NOT COVERED AND COVERED BY BUDGETARY RESOURCES:

($ In Thousands)
                                                       FY 2006              FY 2005
Intragovernmental Liabilities:
         Other                                  $            1,147   $            1,058
Total Intragovernmental Liabilities             $            1,147   $            1,058

Nonfederal Liabilities
         Military Retirement Benefits and       $     963,696,277    $     892,111,601
         Other Employment-Related
         Actuarial Liabilities (Note 7)
         Benefits Due and Payable                      3,409,999             3,321,307
Total Nonfederal Liabilities                    $    967,106,276     $     895,432,908
Total Liabilities                               $    967,107,423     $     895,433,966

Total Liabilities Not Covered by
Budgetary Resources                                  761,665,741           700,974,028
Total Liabilities Covered by Budgetary
Resources                                            205,441,682           194,459,938
Total Liabilities                               $    967,107,423     $     895,433,966

For FY 2006 and FY 2005, Other Intragovernmental Liabilities of $1,147 and $1,058, respectively, represent a
custodial liability. Upon collection, this liability is an obligation to transfer to the US Department of Treasury the
nonentity asset presented in Note 2. The nonentity asset replaces the budgetary resource to cover the liability. The
changes in other intragovernmental liabilities and other nonfederal liabilities are explained in further details in Note
7.




                                                          34
                                                         Notes To The Principal Statements

NOTE 7. MILITARY RETIREMENT AND OTHER FEDERAL EMPLOYMENT BENEFITS:

($ In Thousands)                                                FY 2006
                                   Actuarial
                                                       Assumed             (Less: Assets                Unfunded
                                 Present Value
                                                     Interest Rate        Available to Pay              Actuarial
     Major Program                of Projected
                                                          (%)                Benefits)                  Liabilities
       Activities                Plan Benefits

Military Retirement
Pensions                   $        963,696,277         6.00%        $           (202,031,880)   $          761,664,397
Total:                     $        963,696,277                      $           (202,031,880)   $          761,664,397

                                                                FY 2005
                                   Actuarial
                                                       Assumed             (Less: Assets                Unfunded
                                 Present Value
                                                     Interest Rate        Available to Pay              Actuarial
     Major Program                of Projected
                                                          (%)                Benefits)                  Liabilities
       Activities                Plan Benefits

Military Retirement
Pensions                   $        892,111,601         6.25%        $           (191,138,866)   $          700,972,735
Total:                     $        892,111,601                      $           (191,138,866)   $          700,972,735


1.   Other Information Pertaining to Military Retirement Benefits and Other Employment-Related Actuarial
     Liabilities:

     a.      Actuarial Cost Method Used: Aggregate entry-age normal method.

     b.      The Military Retirement System is a single-employer, defined benefit plan. Administrative costs of
             the Fund are not ascertainable. Projected revenues into the Fund, authorized by Public Law (PL) 98-
             94, come from three sources: interest earnings on Fund assets, monthly DoD contributions, and
             annual contributions from the Treasury Department. The monthly DoD contributions are determined
             as the percentage of basic pay approved by the DoD Retirement Board of Actuaries. The contribution
             from Treasury is paid into the Fund at the beginning of each fiscal year and represents the
             amortization of the unfunded liability for service performed prior to October 1, 1984, as well as the
             amortization of actuarial gains and losses that have arisen since then. Starting October 1, 2004, PL
             108-136 requires the Treasury to contribute the normal cost amount for the concurrent receipt
             provisions under Sections 1413, 1413a, and 1414 in addition to the unfunded liability amortization
             payment. The Board determines Treasury’s contribution, and the Secretary of Defense directs the
             Secretary of Treasury to make the payment.

The long-term economic assumptions for each valuation are set by the DoD Retirement Board of Actuaries. The
long-term assumptions for the FY 2005 valuation were 6.25 percent interest, 3.0 percent Consumer Price Index,
and 3.75 percent salary increase. The long-term economic assumption for interest for the FY 2006 valuation was
lowered to 6.00 percent by the Board at its August 2006 meeting. Other assumptions used to calculate the actuarial
liabilities, such as mortality and retirement rates, were based on actual experience. Because of reporting deadlines,
the current year actuarial present value of projected plan benefits is rolled forward, using accepted actuarial
methods, from the prior year valuation results as reported in the DoD Office of Actuary Valuation of the Military
Retirement System. In calculating the FY 2006 roll-forward amount, the following assumptions were used:

                           Inflation                   Salary                                Interest
Fiscal Year 2006           4.1 percent (actual)        3.1 percent (actual)                  6.00 percent
Fiscal Year 2007           3.0 percent (estimated)     2.7 percent (estimated)               6.00 percent
Long-Term                  3.0 percent                 3.75 percent                          6.00 percent




                                                          35
Notes To The Principal Statements                                                                                        d

Contributions to the Fund are calculated so as to maintain the Fund on an actuarially sound basis. This means that
there will be sufficient funds to make all benefit payments to eligible recipients each year, and that the Fund
balance is projected to eventually equal the actuarial liability, i.e., all unfunded liabilities are liquidated. In order to
accomplish this, normal costs are calculated to fully fund the current year projected liability for active duty
members and reservists. In addition, amortization payments are calculated to fund liabilities that were present at
plan inception (initial unfunded) and any emerging actuarial gains or losses. The initial unfunded liability of the
program is being amortized over a 50-year period. All subsequent gains and losses experienced by the system are
amortized over a 30-year period. Methods and assumptions used to compute actuarial costs and liabilities, and to
amortize the initial unfunded liability as well as all actuarial gains and losses, must be approved by the DoD
Retirement Board of Actuaries, as required by Chapter 74 of Title 10, United States Code. The Board is a Federal
Advisory Committee appointed by the President.

For purposes of the Fund’s financial reporting, this roll-forward process is applied annually.




                                                            36
                                                        Notes To The Principal Statements

NOTE 8. DISCLOSURES RELATED TO THE STATEMENTS OF NET COST:

($ In Thousands)
                                                          FY 2006                      FY 2005

Intragovernmental Costs                       $                         0    $                      0
Public Costs                                                  112,821,696                  96,694,416
Total Costs                                   $               112,821,696    $             96,694,716

Intragovernmental Earned Revenue              $               (51,737,655)   $            (48,812,202)
Public Earned Revenue                                                   0                           0
Total Earned Revenue                          $               (51,737,655)   $            (48,812,202)

Net Cost of Operations                        $                61,084,041    $             47,882,214


Earned Revenues for Program Costs
($ In Thousands)                                                   FY 2006               FY 2005

1. Military Service Contributions as a Percentage of      $         13,895,849   $         15,015,443
Base Pay
2. Annual Treasury Unfunded Liability                               23,180,000             21,358,000
3. Annual Treasury Normal Cost Payment                               2,344,000              1,539,000
4. Interest on Investments                                          12,317,806             10,899,759
Total                                                     $         51,737,655   $         48,812,202

Line 1, Military Service Contributions as a Percentage of Base Pay, decreased $1.1 billion (7%) from FY 2005 to
FY 2006, due to a 1% decrease in the FY 2006 normal cost percentage, which was computed in accordance with
methodology approved by the Board of Actuaries. In its August 2004 meeting, the Board approved changes to
factors in the model that reflect increasing Veterans Administration offsets to DoD military retired pay for new
retirees. As a result of this action, the Board approved the decrease in the FY 2006 normal cost percentage.

Line 2, Annual Treasury Unfunded Liability Payment, increased $1.8 billion (9%) and Line 3, Annual Treasury
Normal Cost Payment, increased $805 million (52%) from FY 2005 to FY 2006. The October 1 unfunded liability
amortization contribution from the Treasury is determined in accordance with the methodology set by the DoD
Retirement Board of Actuaries. This contribution increased from $22.9 billion in the 1st Quarter, FY 2005, to
$25.5 billion (totals of lines 2 and 3 in the table) in the 1st Quarter, FY 2006. The $2.3 billion annual normal cost
component of the October 1, 2005, Treasury contribution was expected to increase $802.0 million because of the
Board of Actuaries’ amortization methodology. The majority of the rest of the increase is due to the Survivor
Benefit Plan provisions of the FY 2005 National Defense Authorization Act. There were other assumption changes
and experience gains that had minimal effects on the contribution.

Line 4, Interest on Investments, increased $1.4 billion (13%) in FY 2006, principally due to the increase in
Treasury payments and the increase in interest rates. Beginning with FY 2006, the Annual Treasury Payment
includes, in addition to the Unfunded Liability Payment, the normal cost for the concurrent receipt benefits enacted
in the FY 2004 National Defense Authorization Act. However, the accrued interest has decreased from FY 2005 to
FY 2006, due to the higher interest Treasury Notes maturing and proceeds reinvested into lower rate investments.
Please see Note 4 for more information.




                                                         37
Notes To The Principal Statements                                                                                d

NOTE 9. BENEFIT PROGRAM EXPENSE

($ In Thousands)                                                 FY 2006                 FY 2005

1. Service Cost                                          $        15,526,645    $          14,857,208
2. Period Interest on the Benefit Liabilities                     54,988,681               51,427,451
3. Prior (or Past) Service Cost                                      117,738               25,835,945
4. Period Actuarial (Gains) or Losses                             41,441,989                4,113,278
5. Total Benefit Program Expense                         $       112,075,053    $          96,233,882

The benefit program expenses provide components of the change in the actuarial liability from September 30,
2005, to September 30, 2006. The September 30, 2006, actuarial liability is calculated using the components of
benefit program expenses as well as the expected benefit payments during FY 2006. The September 30, 2006,
actuarial liability is equal to the September 30, 2005, liability plus the total benefit program expenses minus the
expected benefit payments. The large decrease in Prior Service Cost (Line 3) is primarily due to the SBP legislation
contained in the 2005 National Defense Authorization Act, which contributed significantly to the amount reported
in FY 2005. In FY 2006, benefit changes included the FY 2006 SBP Open Season, but the impact on the actuarial
liability was significantly smaller in magnitude The large increase in Period Actuarial (Gains) or Losses (Line 4)
is primarily due to the new long-term interest assumption (6.00% in FY 2006 versus 6.25% in FY 2005) set by the
DoD Retirement Board of Actuaries at the August 2006 meeting.




                                                        38
                                                         Notes To The Principal Statements

NOTE 10. DISCLOSURES RELATED TO THE STATEMENTS OF BUDGETARY RESOURCES:

The Total Budgetary Resources increased $2.1 billion from FY 2005 to FY 2006. This decrease is primarily
attributable to the Office of Management and Budget (OMB)-directed reclassification of the unobligated fund
balance brought forward in FY 2005 as receipts unavailable or precluded from obligation. As a result, beginning
with the September 30, 2005, year-end reporting, the unobligated unavailable balance is no longer displayed on the
Statement of Budgetary Resources (SBR).

Apportionment Categories

Office of Management and Budget Circular No. A-136 specifically requires disclosure of the amount of direct and
reimbursable obligations incurred against amounts apportioned under category A obligations, which relate to a
specific period of time; category B obligations, which relate to a specific project or program; and exempt from
apportionment obligations, which relate to funds that are not apportioned. The Military Retirement Fund (MRF)
reported $41.2 billion in exempt from apportionment obligations and no category A or category B obligations.

Permanent Indefinite Appropriation

Title 10, United States Code 1461 established the MRF to accumulate funds to finance, on an actuarially sound
basis, the liabilities of the Department of Defense military retirement and survivor benefit programs. This provides
a permanent indefinite appropriation with which to operate. These funds are only available to pay pensions and
annuities to retired military personnel and their survivors, respectively. Amounts that are not needed to pay the
current costs of the Fund may be invested in nonmarketable market-based securities purchased through the
Department of the Treasury.


Use of Unobligated Balances of Budget Authority

The MRF’s unobligated balances of budget authority represent the portion of trust fund receipts collected in the
current fiscal year that (1) exceed the amount needed to pay benefits or other valid obligations and (2) the excess of
receipts temporarily precluded from obligation by law. The receipts, however, are assets of the MRF and are
available for obligation as needed in the future.

Capital Infusions

The MRF received no capital infusions during FY 2006.

Reconciliation Differences

The Department of the Treasury issues annual warrants that pay amortized payments for the unfunded actuarial
liabilities for the MRF. The MRF’s annual warrants for FY 2006 totaled $25.5 billion. The Other Defense
Organizations General Fund credits, and subsequently expends, this amount in accordance with the OMB guidance.
The OMB is aware, and approves, of this duplicate reporting for Appropriations Received in the DoD Agency wide
financial statements.

In addition, the MRF reports Appropriations Received for contributions paid by the Departments of the Army,
Navy, and Air Force. The Military Departments also include these amounts in their Appropriations Received for
MRF. As a result, $13.9 billion is duplicated on the DoD Agency-wide SBR.




                                                         39
Notes To The Principal Statements                                                                                d

NOTE 11. DISCLOSURES RELATED TO THE STATEMENTS OF FINANCING:

Components not Requiring or Generating Resources – Other, represents the change in net accounts receivable from
FY 2005 to FY 2006, with the exception of penalties, fines, and administrative fees that are collected on behalf of
the U.S. Treasury. These balances are the amounts owed to the Fund by military retirees and their survivors for
improper payments.

Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods report unfunded
expenses that were incurred during FY 2006. The cumulative total of unfunded expenses from all fiscal years is
reported as “Liabilities Not Covered by Budgetary Resources” in Note 6.




                                                        40
                                                          Notes To The Principal Statements

NOTE 12. OTHER DISCLOSURES:

Net Pension Expense: The net pension expense for the change in the actuarial accrued liability is developed in the
table below.

($ In Thousands)                                      FY 2006               FY 2005

A. Beginning of Year Accrued Liability          $    892,111,601     $    834,582,098
B. Normal Cost Liability                              15,526,645           14,857,208
C. Plan Amendment Liability                              117,738           25,835,945
D. Assumption Change Liability                        35,383,261            4,904,136
E. Benefit Outlays                                   (40,490,377)         (38,704,379)
F. Interest on Pension Liability                      54,988,681           51,427,451
G. Actuarial Loss (Gain)                               6,058,728             (790,858)
H. End-of Year Accrued Liability
(A+B+C+D+E+F+G)                                 $    963,696,277     $    892,111,601
I. Net Change in Actuarial Liabilities
(B+C+D+E+F+G)                                   $     71,584,676     $      57,529,502


Each year the Accrued Liability is expected to increase with the normal cost, decrease with benefit outlays, and
increase with the interest cost. In the absence of (1) actuarial gains and losses, (2) plan benefit changes, and (3)
assumption changes, an increase of $30 billion in the Accrued Liability was expected during FY 2006.

The September 30, 2006, Accrued Liability includes changes due to (1) assumptions, (2) benefit changes, and (3)
experience. The new assumptions include a change in the interest rate (from 6.25% to 6.00%), updated Temporary
Disability retiree rates, a refined set of survivor pay factors, an update to the percentage of Redux members electing
the Career Status Bonus, and a refinement in the way the savings due to the phase-in of Concurrent Receipt
benefits is calculated. The net effect of these new assumptions is an increase in the September 30, 2006, accrued
liability of $35.4 billion, shown on Line D ($32.8 billion of this increase is due to the new interest assumption).
The changes in retirement benefits for FY 2006 include an accelerated phase-in schedule of Concurrent Receipt
benefits for certain retirees in the FY 2006 National Defense Authorization Act (NDAA), and a one-year Survivor
Benefit Plan (SBP) open enrollment period beginning October 1, 2005, in the FY 2005 NDAA. The accelerated
phase-in schedule of Concurrent Receipt benefits for certain retirees results in an increase in the September 30,
2006, Accrued Liability of $46.3 million, and the increase in the Accrued Liability due to the SBP open season as
of September 30, 2006, is $71.5 million. The total of these benefit changes is $117.7 million, shown on Line C.
The increase in Accrued Liability due to the net experience loss of $6.1 billion, shown on line G, reflects the new
population on which the September 30, 2005, roll-forward is based, as well as other economic experience being
different from that assumed.

The October 1 contribution from the Treasury is determined in accordance with methodology set by the Board of
Actuaries, and increased $2.6 billion (from $22.9 billion in FY 2005 to $25.5 billion in FY 2006). Reasons for the
change include an expected increase of $802,000 inherent in the Board's unfunded liability amortization
methodology, and the following two changes: (1) an assumption change (and new payroll) which raised the
Treasury’s portion of the total normal cost due to concurrent receipt by $805 million, and (2) benefit changes
(including an SBP benefit increase) which raised the Treasury’s amortization payment by about $1.3 billion.

The contributions from the Military Services are the product of basic pay and Normal Cost Percentages (NCPs)
determined in accordance with methodology set by the Board of Actuaries. Basic pay generally increases each
year, and on January 1, 2006, there was a 3.1% across-the-board basic pay increase. The NCPs for FY 2006 were
set by the Board of Actuaries in its November 2004 Board Letter, amending those set in the August 2004 public
meeting: 26.5% (full-time) and 16.7% (part-time). The following NCPs for FY 2007 were set by the Board in its
August 2005 public meeting: 26.5% (full-time) and 17.5% (part-time).




                                                          41
Notes To The Principal Statements                                                                                     d

NOTE 13. SUBSEQUENT EVENT

The 2007 National Defense Authorization Act (NDAA) (also, PL 109-364, or HR 5122), was signed by the
President on October 17, 2006. The 2007 NDAA included a number of provisions impacting the MRF, including:
(1) revisions to the basic pay rates for the uniformed services, effective April 1, 2007; and (2) increases to the limit
on base pay for retired pay computations for retirees with over 30 years creditable service, retiring after
December 31, 2007, by revising the multiplier (previously 75% limit). The Office of the Actuary estimates that the
effects of the benefit changes from the 2007 NDAA will be to increase the actuarial liabilities by approximately
$4.6 billion. This increase is not reflected in the actuarial liabilities in the accompanying balance sheet as of
September 30, 2006.




                                                          42
              Other Accompanying Information




        DoD
MILITARY RETIREMENT
       FUND


OTHER ACCOMPANYING
   INFORMATION




         43
Other Accompanying Information _______________________________




                              44
                                                       Other Accompanying Information

                              MILITARY RETIREMENT SYSTEM
                             ACTUARIAL STATUS INFORMATION
                               SEPTEMBER 30, 2006 AND 2005

                                          ($ in Thousands)


                                                   September 30, 2006 1           September 30, 2005
1 Present value of future benefits

    a.   Annuitants now on roll                           $603,133,141                 $561,003,879
    b.   Non-retired reservists                           $119,079,488                 $109,916,312
    c.   Active duty personnel 2                           $378,230,841                $342,389,456
    d.   Total                                           $1,100,443,470               $1,013,309,647

2 Present value of future normal
  cost contributions                                         $136,747,193               $121,198,047

3 Actuarial accrued liability                                $963,696,277               $892,111,601

4 Assets 3                                                   $202,031,880               $191,138,866

5 Unfunded accrued liability                                 $761,664,397               $700,972,735




________________________________
1
         Rolled forward from September 30, 2005.

2
         The future benefits of active duty personnel who are projected to retire as reservists are
         counted on line 1-b.

3
         The assets available to pay benefits are determined using the amortized cost method
         (book value) of valuation.




                                                  45
Other Accompanying Information _______________________________




                              46
_________________________________   Independent Auditors’ Reports




               DoD
       MILITARY RETIREMENT
              FUND


     INDEPENDENT AUDITORS’
            REPORTS




                              47
Independent Auditors’ Reports ___________________________________




                               48
                                                                                  Deloitte & Touche LLP
                                                                                  Suite 800
                                                                                  1750 Tysons Boulevard
                                                                                  McLean, VA 22102-4219
                                                                                  USA

                                                                                  Tel: 703-251-1000
                                                                                  Fax: 703-251-3400
                                                                                  www.us.deloitte.com
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of the
 Department of Defense


We have audited the accompanying balance sheets of the Department of Defense (“DoD”)
Military Retirement Fund (the “Fund”) as of September 30, 2006 and 2005, and the related
statements of net cost, changes in net position, budgetary resources and financing for the years
then ended. These financial statements are the responsibility of the Fund’s management. Our
responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the
United States of America, the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States, and the
requirements of Office of Management and Budget (“OMB”) Bulletin No. 06-03, Audit
Requirements for Federal Financial Statements. Those standards and the OMB Bulletin require
that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the
Fund’s internal control over financial reporting. Accordingly, we express no such opinion. An
audit also includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements, assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the accompanying financial statements present fairly, in all material respects, the
financial position of the DoD Military Retirement Fund as of September 30, 2006 and 2005, and
its net cost of operations, changes in net position, budgetary resources and financing for the
years then ended in conformity with accounting principles generally accepted in the United
States of America.

Our audits were conducted for the purpose of forming an opinion on the basic financial
statements taken as a whole. The accompanying “Management’s Discussion & Analysis” and
“Other Accompanying Information,” are not required parts of the basic financial statements but
are supplementary information required by accounting principles generally accepted in the
United States of America, OMB Circular A - 136, Financial Reporting Requirements, and the
Federal Accounting Standards Advisory Board. This supplementary information is the
responsibility of the Fund’s management. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and
presentation of the supplementary information. However, we did not audit such information and
we do not express an opinion on it.




                                            53                                  Member of
                                                                                Deloitte Touche Tohmatsu
To the Inspector General of the
Department of Defense


In accordance with Government Auditing Standards, we have also issued our report dated
November 1, 2006 on our consideration of the Fund’s internal control over financial reporting
and on our tests of its compliance with certain provisions of laws, regulations, contracts, and
agreements and other matters. The purpose of that report is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing,
and not to provide an opinion on the internal control over financial reporting or on compliance.
That report is an integral part of an audit performed in accordance with Government Auditing
Standards, and should be read in conjunction with this report in considering the results of our
audits.




November 1, 2006




                                                 54
                                                                                 Deloitte & Touche LLP
                                                                                 Suite 800
                                                                                 1750 Tysons Boulevard
                                                                                 McLean, VA 22102-4219
                                                                                 USA

                                                                                 Tel: 703-251-1000
                                                                                 Fax: 703-251-3400
                                                                                 www.us.deloitte.com




INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED UPON THE AUDIT
PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

To the Inspector General of the
 Department of Defense

We have audited the financial statements of the Department of Defense (“DoD”) Military
Retirement Fund (the “Fund”) as of and for the year ended September 30, 2006, and have
issued our report thereon dated November 1, 2006. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America, the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States, and the requirements of Office of Management and Budget
(“OMB”) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements.

Internal Control over Financial Reporting

In planning and performing our audit, we considered the Fund’s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing our
opinion on the financial statements and not to provide an opinion on the internal control over
financial reporting. Accordingly, we do not express an opinion on internal control over financial
reporting. However, we noted certain matters involving the internal control over financial
reporting and its operation that we consider to be reportable conditions. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operations of the internal control over financial reporting that, in our judgment, could adversely
affect the Fund’s ability to record, process, summarize and report financial data consistent with
the assertions of management in the financial statements. The reportable conditions we noted
are described in the following paragraphs.

The Fund is impacted by control deficiencies identified within the Services regarding the
calculation, authorization and payment of required contributions (Retired Pay Accrual) to the
Fund. There is insufficient documentation provided to the Defense Finance and Accounting
Service (“DFAS”) Trust Fund Division for Service Contributions (based on base pay) processed
by the DFAS payroll offices on behalf of the Services for the appropriate level of review for
accuracy and completeness of the calculation that supports the determination of the Services’
contribution payment amounts. Furthermore, we also noted that the DFAS payroll offices
themselves may not have been provided the necessary information to support the amounts
contributed by the Services. This limits both the DFAS payroll offices and the Trust Fund
Division’s abilities to determine and review, respectively, that the amounts of the contributions
are appropriate, accurate, and complete.

We recommend that the Under Secretary of Defense for Personnel and Readiness (“P&R”)
work with the Services’ Manpower Offices to ensure that certified basic payroll reports are



                                            55                                 Member of
                                                                               Deloitte Touche Tohmatsu
To the Inspector General of the
 Department of Defense


provided to DFAS to support the amounts contributed to the Fund, and that the processes and
controls used in the determination of required contribution amounts are applied on a consistent
basis among the Services. We recommend that DFAS payroll offices and Trust Fund Division
develop and implement improved validation and reconciliation processes for Service
contributions.

Certain general electronic data processing (“EDP”) controls at certain computer processing
locations used by the Fund may not support the reliable processing of financial information
within the related business cycles. Our review disclosed deficiencies in the design or operation
of controls related to EDP security configurations, business continuity arrangements, and
system and network software change management activities that could adversely affect the
Fund’s ability to record, process, and summarize its financial information and protect sensitive
data in accordance with all appropriate requirements. Because disclosure of detailed
information about EDP weaknesses may further compromise controls, we are providing no
further details here. Instead, the specifics will be presented in a separate, limited distribution
management letter.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Our consideration of
the internal control over financial reporting would not necessarily disclose all matters in the
internal control that might be reportable conditions and, accordingly, would not necessarily
disclose all reportable conditions that are also considered to be material weaknesses.
However, we believe the reportable conditions described above are not material weaknesses.

With respect to internal control relevant to data that support reported performance measures on
page 10 of Management's Discussion and Analysis accompanying the financial statements, we
obtained an understanding of the design of significant internal control relating to the existence
and completeness assertions, as required by OMB Bulletin No. 06-03. Our procedures were not
designed to provide assurance on the internal control over reported performance measures and,
accordingly, we do not express an opinion on such control.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Fund’s financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and agreements, noncompliance with which could have a direct
and material effect on the determination of financial statement amounts and certain other laws
and regulations specified in OMB Bulletin No. 06-03. However, providing an opinion on
compliance with those provisions was not an objective of our audit and accordingly, we do not
express such an opinion. The results of our tests disclosed instances of noncompliance or
other matters that are required to be reported under Government Auditing Standards and the
requirements of OMB Bulletin No. 06-03, and which are summarized in the following
paragraphs:

1. The EDP systems utilized by the Fund are not compliant with OMB Circular A-127, Financial
   Management Systems. The Circular requires that federal financial systems provide
   complete, reliable, consistent and useful information on a timely basis. Our procedures


                                            56
To the Inspector General of the
 Department of Defense


   identified deficiencies in the design and operation of certain EDP controls that may increase
   the risk of unauthorized access, modification, or loss of sensitive programs and data which
   could compromise the ability of the systems to provide reliable financial data and protect
   sensitive data.

2. While the general ledger system utilized by the Fund is compliant with the United States
   Standard General Ledger (“SGL”), it is not transaction-based nor is it derived from an
   integrated financial system.

Distribution

This report is intended solely for the information and use of the Inspector General of the
Department of Defense, the Audit Committee and management of the Fund, other Defense
Organizations, the Office of Management and Budget, the Government Accountability Office,
and the United States Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 1, 2006




                                          57
